 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


               Management Letter 

              for the FY 2007 DHS 

            Financial Statement Audit 





OIG-08-36                       April 2008
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 25028




                                                               Homeland
                                                               Security

                                           Preface


The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports published by our office as part of our oversight responsibility to promote
economy, efficiency and effectiveness within the department.

This report represents the management letter for DHS' FY 2007 financial statement audit.
It contains observations and recommendations related to internal control that were not
required to be reported in the financial statement audit report. The independent public
accounting firm KPMG LLP (KPMG) performed the audit ofDHS' FY 2007 financial
statements and prepared this management letter. Material weaknesses and other
significant deficiencies were reported, as required, in KPMG's Independent Auditor's
Report, dated November 15, 2007, that was included in the FY 2007 DHS Annual
Financial Report. KPMG is responsible for the attached management letter dated
December 21, 2007, and the conclusions expressed in it. We do not express opinions on
DHS' financial statements or internal control or conclusion on compliance with laws and
regulations.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.


                                     ~ef'~
                                     Richard Skinner
                                               L.
                                       Inspector General
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




December 21, 2007

Office of Inspector General and Chief Financial Officer,
U.S. Department of Homeland Security,
Washington, DC

Ladies and Gentlemen:

We were engaged to audit the balance sheet and statement of custodial activity of the U.S.
Department of Homeland Security (DHS or Department) as of September 30, 2007 (referred to
herein as "fiscal year 2007 financial statements"). We were not engaged to audit the statements
of net cost, changes in net position, and budgetary resources for the year ended September 30,
2007 (referred to herein as "other fiscal year 2007 financial statements"). Because of matters
discussed in our Independent Auditors' Report, dated November 15, 2007, the scope of our work
was not sufficient to enable us to express, and we did not express, an opinion on the balance sheet
or the statement of custodial activity for the year ended September 30,2007.

In connection with our fiscal year (FY) 2007 engagement, we were also engaged to consider
DHS' internal control over financial reporting and to test DHS' compliance with certain
provisions of applicable laws, regulations, contracts, and grant agreements that could have a
direct and material effect on the balance sheet and statement of custodial activity. Our procedures
did not include examining the effectiveness of internal control and do not provide assurance on
internal control. We have not considered internal control since the date of our report.

We noted certain matters involving internal control and other operational matters that are
summarized in the Table of Financial Management Comments on the next page, and presented for
your consideration in Sections I - XI of this letter. These comments and recommendations, all of
which have been discussed with the appropriate members of management, are intended to
improve internal control or result in other operating efficiencies. These comments are in addition
to the significant deficiencies presented in our Independent Auditors' Report, dated November 15,
2007, included in the FY 2007 DHS Annual Financial Report. A description of each internal
control finding, and its disposition, as either a significant deficiency or a financial management
comment is provided in Appendix A. Our findings related to information technology systems
security have been presented in a separate letter to the Office of Inspector General and the DHS
ChiefInformation Officer dated December 18,2007.

As described above, the scope of our work was not sufficient to express an opinion on the balance
sheet or statement of custodial activity of DHS as of September 30, 2007, and we were not
engaged to audit the statements of net cost, changes in net position, and budgetary resources for
the year ended September 30, 2007. Accordingly, other internal control matters and other
instances of non-compliance may have been identified and reported had we been able to perform
all procedures necessary to express an opinion on the fiscal year 2007 financial statements and
had we been engaged to audit the other fiscal year 2007 financial statements. We aim, however,
to use our knowledge of DHS' organization gained during our work to make comments and
suggestions that we hope will be useful to you.




                               ....l·yv   L P      1.1'3 r. l-:f liab! Iy J:.i'llroe ~n." !. trJ-;i 1J.s
                               r1l8O'1)81- firm   of KF\Y': I I.6rllati"", '1, S 110.(\ e~ .;:or·11P.:
We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of DRS' management, the Office of Inspector
General, the U.S. Office of Management and Budget, the U.S. Congress, and the Government
Accountability Office, and is not intended to be and should not be used by anyone other than
these specified parties.

Very truly yours,
                                  Department of Homeland Security
                              Table ofFinancial Management Comments
                                         September 30, 2007

             TABLE OF FINANCIALMANAGEMENT .COMMENTS (FMC)

Section/Component
           Comment
           Reference   Subject                                                                     Page(s)

 I     Customs and Border Protection (CBP)                                                          3-4
           FMC 07-01   Weaknesses in the management of environmental liabilities
           FMC 07-02   Weaknesses in CBP's controls related to asset retirements
           FMC 07-03   Untimely capitalization of assets from internal use software in
                       development to internal use software

 II    Federal Emergency Management Agency (FEMA)                                                    5-8
           FMC 07-01   Unavailability of supporting documentation for the reporting of internal
                       use software and internal use software in development
           FMC 07-02   Non-compliance with 5 CFR Part 2638 related to ethics training
           FMC 07-03   NEMIS auto-determination process needs improvement
           FMC 07-04   Incomplete year-end accounts payable accruals related to fire grants
           FMC 07-05   Legal liabilities
           FMC 07-06   Ineffective internal controls over FEMA grants
           FMC 07-07   Temporary adjustments of Fund Balance with Treasury reconciling
                       differences
           FMC 07-08   Review for property, plant, and equipment acquired at year-end
           FMC 07-09   Ineffective controls over journal vouchers
           FMC 07-10   Recording oftransactions in Fund 36
           FMC 07-11   Inherited problems in G&T's Integrated Financial Management
                       Information System

 III   United States Citizenship and Immigration Services (USCIS)                                   9-13
           FMC 07-01   Need for refinement of the deferred revenue quality assurance analysis
                       methodology
           FMC 07-02   Fee receipts are not being deposited in a timely manner per Treasury
                       guidance at USCIS Service Centers
           FMC 07-03   RNACS improperly reflects completed naturalization applications as
                       pending
           FMC 07-04   Completeness of deferred revenue
           FMC 07-05   Applications included in deferred revenue at incorrect fee amounts
           FMC 07-06   Obligations are not being recorded in FFMS in a timely manner
           FMC 07-07   Discrepancies with leave balances between the NFC records and STAR
                       WEB reports are not being researched and resolved timely
           FMC 07-08   Untimely resolution of issues identified during the reconciliation of the
                       SF-l32 and SF-l33
           FMC 07-09   Errors in performance of the deferred revenue quality assurance
                       procedures at the Washington District Office
           FMC 07-10   Inadequate internal controls over the inventory of applications awaiting
                       processing at the service centers

 IV    Immigration and Customs Enforcement (ICE)                                                    14-18
           FMC 07-01   Untimely execution of reimbursable agreements with other
                       governmental entities when ICE is performing the services
           FMC 07-02   Untimely resolution of issues identified during the reconciliation of the
                       SF-l32 and SF-l33
                                     Department of Homeland Security
                                 Table ofFinancial Management Comments
                                            September 30, 2007

              FMC 07-03    Untimely disbursement of payments to vendors and incorrect
                           calculation of interest due pursuant to the Prompt Payment Act
              FMC 07-04    Obligations are not being recorded in FFMS in a timely manner
              FMC 07-05    Inconsistent classification within FFMS for purchases of goods and the
                           use of receiving tickets
              FMC 07-06    Discrepancies with the leave balances between the NFC records and
                           STAR reports are not being researched and resolved timely
              FMC 07-07    Lack of procedures to verify the receipt and acceptance of goods or
                           services for IPAC transactions
              FMC 07-08    Inadequate and/or inconsistent supervisory review of payroll
                           transactions
              FMC 07-09    Inadequate policies and/or procedures within the Ethics Office related
                           to Senior Executive Service (SES) employees
              FMC 07-10    Unauthorized approvals offree-form general joumal entries

 V         Management Directorate (MGT)                                                                  19
               FMC 07-01   Obligations are not being keyed into FFMS in a timely manner

VI         Preparedness Directorate (PRE)                                                                20
               FMC 07-01   Obligations are not being keyed into FFMS in a timely manner

VII        Science & Technology Directorate (S&T)                                                        21
               FMC 07-01   Obligations are not recorded in FFMS timely
               FMC 07-02   Untimely resolution of issues identified during the reconciliation of the
                           SF-l32 and SF-l33

VIII       US-VISIT Directorate (USV)                                                                    22
               FMC 07-01   Obligations are not being keyed in FFMS in a timely manner

IX         Transportation Security Administration (TSA)                                                  23
               FMC 07-01   Letters of intent accrual for June 30, 2007
               FMC 07-02   Required Supplementary Stewardship Information

 X         United States Secret Service (USSS)                                                           24
               FMC 07-01   Seized counterfeit currency reporting
               FMC 07-02   Pension liability reporting

XI         Consolidated (CONS)                                                                         25-27
               FMC 07-01   Tracking system for ethics training, public financial disclosures, and
                           confidential reports
               FMC 07-02   Completeness ofDHS reported Treasury Account Fund Symbols
               FMC 07-03   Preparation of the departmental legal letter
               FMC 07-04   Restatement ofFY 2006 balances
               FMC 07-05   Policies and procedures related to imputed costs
               FMC 07-06   Earmarked funds (implementation of SFFAS No. 27)


                                                APPENDIX
Appendix        Subject                                                                                Page(s)

       A        Crosswalk - Financial Management Comments to Active NFRs                               28-33
       B        Status of Prior Year NFRs                                                              34-41
       C        Management Response                                                                     42


                                                          2
                                                                                              Section I
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2007


I.     CUSTOMS AND BORDER PROTECTION (CBP)

CBP - FMC 07-01- Weaknesses in the management of environmental liabilities
(NFR No. CBP 07-10)

       We noted weaknesses related to CBP's policies and procedures for recognizing environmental
       liabilities during FY 2005. During FYs 2006 and 2007, CBP made significant program changes
       and improved their overall process related to environmental liabilities. However, the following
       weaknesses were still noted during FY 2007:
       • Development and implementation of the environmental liability management efforts,
           including new policies, procedures, and the management software system (CP-Track) has not
           been finalized; CBP is currently reevaluating CP-Track to determine if there is a more
           appropriate approach or a better software tool to use.
       • Re-evaluation of liability associated with firing ranges has not been completed.

       Recommendations:
       We recommend that CBP:
       • Continue developing, implementing, and maintaining environmental liability management
          efforts including developing policies, procedures, and management software systems;
       • Continue to re-evaluate the estimates related to CBP's firing range liability as additional
          information becomes available; and

CBP - FMC 07-02 - Weaknesses in CBP's controls related to asset retirements
(NFR No. CBP 07-21)

       CBP retired three aircraft in the fourth quarter of FY 2007 using the ZAARET2 function within
       its financial reporting system (SAP). The ZAARET2 function was added to SAP to exclude asset
       removals that do not represent true asset retirements or asset sales (i.e. removal of
       duplicates/removal of assets created in error), from being reported as asset disposals. However,
       the three aircraft were true asset retirements. One aircraft was transferred to another
       organization; however, no Transfer Internal Property Action form (CF-33) was completed and
       approved prior to the transfer. The other two aircraft were excess property for CBP; however, the
       Report ofExcess Personal Property form (SF-120) was not completed.

       Recommendation:
       We recommend that CBP implement procedures to ensure that the proper documentation is
       completed when retiring assets.

CBP - FMC 07-03 - Untimely capitalization of assets from internal use software in ,development to
internal use software (NFR No. CBP 07-22)

       We noted three assets classified as "in-development" by the Office of Information and
       Technology (OIT) as of September 30, 2007 were actually placed in-service during FY 2007.
       The three assets identified, with a total value of $33.8 million, should have been classified as
       Internal Use Software as of September 30, 2007 instead of internal use software in development.
       In addition, we noted that $1.3 million of depreciation expense and accumulated depreciation
       should have been recorded for these assets during FY 2007.



                                                  3
                                                                                        Section I
                           Department of Homeland Security
                           Financial Management Comments
                                 September 30, 2007




Recommendation:
We recommend that CBP ensure that OIT and all project managers are aware of what qualifies as
a "completed asset" to ensure that completed projects are reclassified from in-development to in-
use assets in a timely manner so as to properly classify the assets within PP&E and to begin
depreciation during the current period.




                                            4
                                                                                             Section II
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2007


II.    FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA) (including the fonner
       Office of Grants and Training)

FEMA - FMC 07-01 - Unavailability of supporting documentation for reporting of internal use
software and internal use software in development (NFR No. FEMA 07-12)

       FEMA does not maintain records of the actual costs for its internal use software or internal use
       software in development. FEMA is currently estimating the capitalizable cost of these assets. In
       addition, FEMA does not have procedures in place to periodically assess the reliability of its
       estimates, such as comparisons of estimates to actual costs.

       Furthermore, FEMA recorded costs for software in development in standard general ledger (SGL)
       account 1830, Internal Use Software, rather than SGL account 1832, Internal Use Software in
       Development.

       Recommendations:
       We recommend that FEMA:
       • Develop and implement a formal tracking system for the costs related to the development and
          implementation of internal use software;
       • Use the information from the tracking system either to record actual costs of internal use
          software in the general ledger or to validate estimated costs on a periodic basis (at least
          annually);
       • Amend its procedures to ensure that the costs of software in development are recorded in
          SGL account 1832, and the full cost of the software is transferred to SGL account 1830 after
          final acceptance testing is completed;
       • Reclassify costs of software in development that are currently recorded in SGL account 1830
          to SGL account 1832; and
       • Properly record the amortization expense recorded to date for the costs of software in
          development.

FEMA - FMC 07-02 - Non-compliance with 5 CFR Part 2638 related to ethics training
(NFR No. FEMA 07-13)


       FEMA was unable to provide adequate documentation to support attendance by existing financial
       disclosure filers and new hire employees at the respective required ethics training.

       Recommendation:
       As in FY2006, we recommend that FEMA develop procedures and dedicate resources to tracking
       compliance with, and monitoring of, the annual and new-hire ethics training requirements.

FEMA - FMC 07-03 - NEMIS auto-determination process needs improvement (NFR No. 07-16)

       FEMA has not established a process to verify an applicant's homeowner's insurance prior to
       granting disaster housing assistance. We noted that the National Emergency Management
       Information System (NEMIS) business rules and the NEMIS auto-determination process cannot
       verify homeowner's insurance status; therefore, FEMA does not have controls in place to prevent
       a violation of the Stafford Act, which precludes duplication of benefits.


                                                  5
                                                                                               Section II
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2007




       Recommendation:
       We recommend that the FEMA establish a process to verify an applicant's homeowner's
       insurance status to prevent (a) the inappropriate awarding of disaster assistance and (b) non-
       compliance with the Stafford Act.

FEMA - FMC 07-04 - Incomplete year-end accounts payable accrual related to fire grants
(NFR No. FEMA 07-18)

       FEMA did not estimate an amount to be accrued for Assistance to Firefighters Grants (AFG)
       expenses incurred by grantees but not paid to them as of September 30, 2007. Further, FEMA
       was unable to identify the period work was completed related to the disbursements made
       subsequent to September 30, 2007.

       Recommendation:
       We recommend that FEMA develop and implement procedures to estimate and record the grants
       payable liability related to the AFG qualterly.

FEMA - FMC 07-05 - Legal liabilities (NFR No. FEMA 07-23)

       FEMA's legal letter templates are the only documentation provided to management for financial
       statement legal accrual and disclosure considerations. FEMA's legal letter templates did not
       contain the information necessmy to support the completeness and accuracy of the legal data
       provided to DHS Office of Financial Management (OFM) for its use, and to accrue the legal
       liability and prepare related note disclosures for DHS' consolidated financial statements.

       Recommendation:
       We recommend that FEMA, in coordination with DHS OFM, continue to develop, document, and
       implement formal policies and procedures to verify and support the relevant management
       assertions, to include the assertions of completeness and accuracy of the legal liability estimate
       and related disclosure on a quarterly basis.

FEMA - FMC 07-06 - Ineffective internal controls over FEMA grants (NFR No. FEMA 07-26)

       We tested the internal controls related to 78 grants issued by FEMA and the related undelivered
       order balances as of March 31, 2007, and noted the following control deficiencies:
       • For ten of the 78 grants tested, the reconciliations of the Financial Status Reports to NEMIS,
           Integrated Financial Management Information System (IFMIS), and Automated Disaster
           Assistance Management System (ADAMS) were not performed properly or timely. These
           exceptions were identified in region VIII, Denver.
       • For ten of the 78 grants tested, the quarterly Financial Status Report tracking logs were not
           maintained. These exceptions were identified in region VIII, Denver.
       • For two of the 78 grants tested, the Financial Status Report was not received timely, and
           there was no evidence of any action taken by FEMA to correct the delinquencies. These
           exceptions were identified in region II, New York.




                                                   6
                                                                                                Section II
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2007




      Recommendations:
      We recommend that FEMA:
      • Enforce procedures requiring the timely reconciliation of the Financial Status Reports (SF-
         269s or FEMA 20-10) submitted by grantees to NEMIS, IFMIS, and ADAMS quarterly;
      • Ensure the establishment of a centralized mechanism to collect FSRs and Project Status
         Reports (PSR) regularly and maintain tracking logs to document the receipt of these reports;
         and
      • Ensure that staff takes action timely on delinquent grantee reports and document the action
         taken.

FEMA - FMC 07-07 - Temporary adjustments of Fund Balance with Treasury reconciling
differences (NFR No. FEMA 07-28)

      During our year-end Fund Balance with Treasury reconciliation and journal voucher review
      testwork, we noted that both the Reports Consolidation Branch (RCB) and the Disaster Finance
      Branch (DFB) posted temporary adjusting entries totaling a net of $24.3 million for differences
      that needed additional research in order to adjust cash to the balances reported by Treasury.

      Recommendation:
      We recommend that FEMA continue to improve the timeliness of reconciling differences with
      Treasury so that "temporary" adjustments are not needed.

FEMA - FMC 07-08 - Review for property, plant, and equipment acquired at year-end (NFR No.
FEMA 07-29)

       For 18 of 30 purchases in excess of $50,000 selected from the second and fourth quarters of FY
       2007, we noted that while a review was made by DFB personnel, the support received did not
       provide sufficient documentation to support a determination as to the capitalization classification
       of the items.

       Recommendation:
       We recommend that FEMA management emphasize the coordination of necessary accounting
       information agency-wide in its plan to address control deficiencies identified related to financial
       management and entity level controls. The plan should stress the importance of the maintenance
       of proper documentation in divisions and offices other than the Office of the Chief Financial
       Officer and the necessity of providing this documentation to the DFB timely upon request,
       thereby enabling the DFB to maintain adequate supporting documentation of asset capitalization
       determinations.

FEMA - FMC 07-09 - Ineffective controls over journal vouchers (NFR No. FEMA 07-30)

       We noted in 24 of the 98 journal vouchers (JVs) reviewed during our financial reporting process
       testwork that the individual who approved the hard copy of the IFMIS General Ledger - Journal
       Voucher 2007 was not the same individual who approved the journal voucher within IFMIS via
       the Journal Voucher entry window. We also noted in 28 of the 98 JVs tested that the approver's
       signature was applied using a rubber stamp.


                                                   7
                                                                                              Section II
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2007




      Recommendation:
      We recommend that FEMA management ensure that staff are properly trained on the internal
      controls surrounding JVs and that the requirements in the Office of the Chief Financial Officer
      Journal Voucher (JV) Process manual are enforced. In addition, FEMA management should
      prohibit the use of a signature stamp to denote approval of N s unless the approver also initials
      next to the stamped signature.

FEMA - FMC 07-10 - Recording of transactions in Fund 36 (NFR No. FEMA 07-31)

      FEMA processes transactions in a non-Treasury recognized suspense account identified as Fund
      36. The fund, which is used as a suspense account, acts as a contra account to the Disaster Relief
      Fund (Fund 6-TFS 70X0702). We noted during our testwork that the transactions recorded in
      Fund 36 are not being resolved and posted correctly in a timely manner, and the material
      suspense amounts are not being properly reported to Treasury in an appropriate suspense account.

      Recommendations:
      We recommend that:
      • FEMA adhere to its existing policies and procedures when processing mission assignment
         payments and credits, specifically its SOP Processing Mission Assignment and Interagency
         Payments for Fund Code 06. These procedures include posting suspense transactions to
         appropriate clearing accounts and charging back unsupported bills within the documented
         time frames if timely resolution attempts fail.
      • FEMA's Federal Payment team continue to develop and implement policies that will ensure
         the timely processing of suspense transactions within stated time frames. The procedures
         should include standardized Intra-Governmental Payment and Collection (IPAC) support
         templates with appropriately identified required fields to ensure prompt posting.
      • The FEMA Chief Financial Officer require DFB to properly account for IPAC suspense
         transactions in a Treasury recognized suspense account.

FEMA - FMC 07-11- Inherited problems in G&T's Integrated Financial Management
Information System (NFR No. FEMA 07-32)

       During fiscal year 2007, FEMA inherited the Grants & Training (G&T) IFMIS when G&T was
       merged with FEMA. FEMA's internal analysis of the system determined that Federal / non-
       Federal attributes needed for FACTS II and TIER submissions were not properly included in the
       inherited version ofG&T's IFMIS.

       Recommendation:
       We recommend that FEMA complete its analysis and correction of the Federal/non-Federal
       attribute errors in the former G&T's instance of IFMIS. Once the inherited errors are corrected,
       FEMA should perform procedures to validate the accuracy of the revisions before merging the
       G&T instance of IFMIS with the FEMA instance of IFMIS (scheduled for November or
       December 2008).




                                                  8
                                                                                              Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2007


III.   UNITED STATES CITIZENSHIP AND IMMIGRATION SERVICES (USCIS)

CIS - FMC 07-01 - Need for refinement of the deferred revenue quality assurance analysis
       methodology (NFR No. CIS 07-01)

       We noted the following conditions related to the deferred revenue quality assurance (QA)
       process:
       • The deferred revenue QA procedures are carried out according to a rotation whereby 11
           District Offices and two Service Centers (or the National Benefits Center (NBC» undergo
           QA testing each month. The rotation is such that each District is selected for QA once every
           three months, and each Service Center (or the NBC) is selected every two-three months. This
           method of sampling means the amount of QA testing at a site is not proportional to the
           number and value of pending applications, therefore the errors identified during the QA
           process are not evenly weighted and errors rates are not easily projected back against the
           reported value of deferred revenue.
       • The deferred revenue QA procedures are insufficient in relation to procedures to be
           performed when a particular file cannot be located by the office performing the QA
           procedures. Current deferred revenue QA procedures instruct offices to select a replacement
           file from an overdraw listing whenever a file cannot be readily located. According to the
           Quality Management Branch (QMB), these files are not lost, but are most likely at another
           location. The instructions given to the QA participants do not call for follow-up procedures
           to locate these files nor has QMB taken action and conducted procedures to validate its
           assumption that these files are not lost.
       • Although QMB computes a range of error, the USCIS' Financial Management Division
           (FMD) does not use this data to adjust the estimate of deferred revenue.
       • Monthly, all USCIS offices processing applications report the number of applications
           received, processed, and pending through the Performance Analysis System (PAS). The
            number of pending cases reported through PAS is reconciled against the results from the
           queries of CLAIMS 3, CLAIMS 4 and RNACS to determine the count of applications not
           captured in the system queries. This information on non-system applications is included in
           the computation of deferred revenue provided to USCIS FMD. During FY 2007, the QMB
           began including information on one non-system application (I-75l) from Marriage Fraud
           Application System (MFAS) in the QA process to determine if the MFAS data was
           sufficiently reliable for deferred revenue reporting. However, the non-system applications are
           not subjected to the QA procedures implemented to validate the reliability of USCIS' basis
            for the computation of deferred revenue, because the data is not captured at the application
           level.

       Recommendations:
       We recommend that the USCIS FMD in conjunction with the Performance Management
       Division:
       • Revise the QA sampling methodology so that the testing is proportional to reported value of
          the deferred revenue and better addresses the risk of material misstatement in reported value;
       • Evaluate the results of QA procedures performed and refine the query process to provide a
          more accurate estimate of deferred revenue for reporting on the financial statements;
       • Revise QA policies and procedures to require all files to be located. If a file is unable to be
          located, it should be considered an error for purposes of QA;



                                                   9
                                                                                               Section III
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2007



       •   Track all pending applications within one system or in a series of systems that are integrated;
           and
       •   While new case management system is in development, institute operational changes to
           minimize the number of pending applications that are not tracked in a system.

CIS - FMC 07-02 - Fee receipts are not being deposited in a timely manner per Treasury
guidance at USCIS Service Centers (NFR No. CIS 07-02)

       An estimated $245 million of fee receipts pertaining to the front-log of immigration and
       naturalization applications were not deposited in accordance with Treasury's guidance.

       Recommendations:
       We recommend that the Service Center Operations:
       • Continue efforts to move the receipt of all Service Center applications and petitions with fees
          to lockbox operations by the end ofFY 2008; and
       • Develop contingency plans to cover potential workload surges that exceed 120% of normal
          workload.

CIS - FMC 07-03 - RNACS improperly reflects completed naturalization applications as pending
(NFR No. CIS 07-03)

       Reengineered Naturalization Application Casework System (RNACS) improperly reflects
       completed naturalization applications as pending. During our testwork, we noted 12 of the 31
       selected were inappropriately reported in RNACS as pending based on the QA queries for six
       district offices, as they were in fact completed. Extrapolation of the error to the total amount of
       deferred revenue as of June 30, 2007 per RNACS yielded an overstatement of approximately $7.6
       million.

       Recommendations:
       We recommend that the Office ofField Operations:
       • Adjust management's estimate of defen'ed revenue to take into account the error rate of
          RNACS applications found by QA testing;
       • Identify an alternate system, new or existing, for tracking naturalization applications;
       • Review existing RNACS data, identify valid pending cases, and transfer them to a different
          tracking system; and
       • Cease entering all new applications into RNACS.

CIS - FMC 07-04 - Completeness of deferred revenue (NFR No. CIS 07-04)

       Pending immigration and naturalization applications were not entered into the CLAIMS 3 and
       CLAIMS 4 systems in a timely manner (i.e. within three business days) for 83 of363 applications
       tested. The adjudication decision was not updated in CLAIMS 3 in a timely manner for three of
       78 immigration applications tested. The untimely updating of CLAIMS 3 and CLAIMS 4
       increases the possibility that the number of pending applications at the end of any given reporting
       period may be incomplete, thus resulting in the misstatement of deferred revenue.




                                                   10
                                                                                             Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2007




       Recommendation:
       We recommend that USCIS place an increased emphasis on the operating effectiveness of
       preventative internal control procedures, which act to ensure the timely update of application
       status in both CLAIMS 3 and CLAIMS 4 is achieved.

CIS - FMC 07-05 - Applications included in deferred revenue at incorrect fee amounts
(NFR No. CIS 07-05)

       During our review of pending immigration and naturalization applications that were selected by
       QMB for the monthly deferred revenue QA process, we noted 11 of 363 applications had the
       incorrect fee amount associated with the application within the query.

       Recommendation:
       We recommend that USCIS management formally identify the business system owner of the
       deferred revenue query applications and the owner is assigned the responsibility for ensuring the
       accuracy of the deferred revenue fee infOlmation.

CIS - FMC 07-06 - Obligations are not being recorded in FFMS in a timely manner
(NFR No. CIS 07-06)

       During our testwork over FY 2007 disbursements and obligations, we noted the following
       indicating certain obligations were not recorded timely:
       • The period of performance for one disbursement was prior to the obligation being recorded in
           Federal Financial Management System (FFMS).
       • The invoice for two disbursements was received prior to the obligation being recorded in
           FFMS, which further supports that services were rendered before the obligation was recorded
           in the general ledger.
       • Four obligations were not recorded in FFMS in a timely manner after the contracting officer
           approved the obligating document.

       Recommendations:
       We recommend that until the interface between FFMS and Purchase Request Information System
       (PRISM) is implemented the USCIS FMD:
       • Reinforce controls to monitor timely recording of obligations within FFMS; ensuring that
          obligations are being recorded in FFMS upon execution of an obligating document; and
       • On a more frequent basis, reconcile all obligations created in PRISM to the general ledger
          (i.e., FFMS). Specifically, the reconciliation should consist of the identification of
          differences between obligations created in PRISM and those recorded within FFMS. As
          differences are identified, management should research the causes and take immediate
          corrective action.

CIS - FMC 07-07 - Discrepancies with leave balances between the NFC records and STAR WEB
reports are not being researched and resolved timely (NFR No. CIS 07-07)

       We noted several instances where the annual leave and sick leave hours reported by the National
       Finance Center (NFC) did not agree to the annual and sick leave hours recorded in System Time



                                                  11
                                                                                               Section III
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2007



       and Attendance Reporting (STAR WEB) system. These errors remained outstanding for well
       over five pay periods subsequent to being identified.

       Recommendations:
       We recommend that:
       • Timekeepers adhere to existing policy and procedures by performing leave audits when
          discrepancies are reported by NFC and timely research and resolve the differences;
       • The Office of Human Resources develop and implement controls to monitor the execution of
          its policies and procedures outlined in the Leave Audit Procedures, and identification and
          resolution of differences to ensure that they are being followed.

CIS - FMC 07-08 - Untimely resolution of issues identified during the reconciliation of the SF-132
and SF-133 (NFR No. CIS 07-08)

       The issues identifed during USCIS ' reconciliation of the Apportionment and Reapportionment
       Schedule (SF-I32) and Report on Budget Execution and Budgetmy Resources (SF-133) were not
       resolved in a timely manner in FY 2007. Failure to resolve differences between the SF-132 and
       SF-133 may result in error or misstatements in the financial statements.

       Recommendations:
       We recommend that the USCIS Budget Office:
       • Prepare policies and procedures for taking the appropriate corrective action to timely resolve
          any differences identified during the SF-132/SF-133 reconciliation, within 30 days of
          notification; and
       • Indicate within the policies and procedures the responsibilities of the USCIS Budget Office to
          include, at a minimum, the threshold for which the submission of a revised SF-132 is deemed
          warranted, who is responsible for reviewing the reconciliation, and how to document review
          of the reconciliation.

CIS - FMC 07-09 - Errors in performance of the deferred revenue quality assurance procedures at
the Washington District Office (NFR No. CIS 07-09)

       Our review of a sample of 23 immigration and naturalization applications at the Washington
       District Office consisted of verification of the status (i.e. pending or closed) of each through
       inspection of the hard-copy application file. These results were then compared to the Washington
       District Office's own QA results that were submitted to the QMB. This re-performance of the
       Washington District Office's June 2007 deferred revenue QA procedures resulted in five
       exceptions, a 21.7% error rate, where the applications' status per inspection of the hard-copy file
       differed from the status that was reported to QMB.

       Recommendation:
       We recommend that the USCIS FMD in conjunction with the QMB require a supervisory review
       at the Service Centers, NBC, and the Districts to help ensure that errors in the performance of the
       monthly deferred revenue QA procedures do not occur.




                                                   12
                                                                                            Section III
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2007


CIS - FMC 07-10 - Inadequate internal controls over the inventory of applications awaiting,
processing at the service centers (NFR No. CIS 07-10)

       We noted the following conditions related to internal controls over the front-log of immigration
       and naturalization applications:
       • The Texas Service Center (TSC) did not have an auditable tracking sheet for the
          naturalization applications showing the breakdown by day of the application inventory.
       • The 1-485 Supplement A applications (each with a $1,000 fee) were not being taken into
           account in the 'front-log' inventory estimation.
       • We were unable to successfully recalculate the total 'Envelope Count' reported on the '1-485
          Counts' inventory tracking worksheet for all five days selected.

       Recommendation:
       These conditions were identifed and communicated to USCIS early in our testwork. USCIS
       implemented corrective action prior to September 30, 2007 and we determined that these actions
       were properly implemented and operating effectively.         As such, we have no further
       recommendation.




                                                  13
                                                                                                Section IV
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2007



IV.    IMMIGRATION AND CUSTOMS ENFORCEMENT (ICE)

ICE - FMC 07-01 - Untimely execution of reimbursable agreements with other governmental
entities when ICE is performing the services (NFR No. ICE 07-01)

       In our review of a sample of ten reimbursable agreements and 25 security work agreements, we
       noted three of the reimbursable agreements and six of the security work agreements were not
       signed in a timely manner (>five days). Even though services may be recurring, they still need to
       be signed by all parties in a timely manner prior to the start date of the services. In addition, the
       Office of Detention and Removal had not fully executed a reimbursable agreement with the U.S.
       Marshals Service.

       Recommendation:
       We recommend that ICE implement policies and procedures to ensure each reimbursable
       agreement or security work agreement is signed within five business days of the other contracting
       party, and these policies and procedures require an escalation plan of approval for continuation of
       services under expired reimbursable agreements. Furthermore, ICE should formally document its
       policy requiring the timely signature of all reimbursable agreements and security work
       agreements within a set timeframe.

ICE - FMC 07-02 - Untimely resolution of issues identified during the reconciliation of the SF-132
and SF-133 (NFR No. ICE 07-02)

       Differences identified during ICE's reconciliation of the SF-132 and SF-133 were not resolved
       timely in FY 2007. Reconciling differences were noted for two Treasury Account Fund Symbols
       in the reconciliation performed for the month of March 2007, and then continued to exist, and in
       one case increased, during the reconciliations performed for the month of June 2007.

       Recommendations:
       We recommend that ICE:
       • Adhere to the existing procedures by taking the appropriate corrective action to timely
          resolve differences identified as a result of the SF-132/SF-133 reconciliation;
       • Consider expanding upon its responsibilities outlined in the existing policy and procedures to
          include within the text of the policy, at a minimum, the threshold for which the submission of
          a revised SF-132 is deemed warranted and the person responsible for reviewing the
          reconciliations; and
       • Adhere to the exisiting procedures by notifying the Chief Financial Officer if necessary
          actions to correct or resolve discrepancies are not completed within 30 days of issuance of the
          spreadsheet.

ICE - FMC 07-03 - Untimely disbursement of payments to vendors and incorrect calculation of
interest due pursuant to the Prompt Payment Act (NFR No. ICE 07-03)

       Certain disbursements to ICE's vendors and its customers' vendors were not made in a timely
       manner (note that ICE's customers include USCIS, Preparedness, MGT, and US-VISIT).
       Specifically, we noted that 52 invoices out of a sample of 326 disbursements subject to the
       Prompt Payment Act were not paid within 30 days after receipt of a proper invoice. We noted



                                                    14
                                                                                             Section IV
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2007


      that four interest payments were not made timely, occuring three to eight months after the
      payment of the invoice. In addition, we noted one instance in which a data entry error resulted in
      an overpayment of Prompt Payment Act interest to a vendor. The overpayment was $47,275,
      which ICE deducted from the subsequent month's payment.

       Recommendations:
       We recommend that the Dallas Finance Center (DFC), in coordination with the ICE Office of
       Financial Management (ICE-OFM) at Headquarters:
       • Continue to instruct ICE's program offices on the requirements to submit invoices to DFC in
           a timely manner so that the payments can be made in compliance with the Prompt Payment
           Act;
       • Issue formal policies and procedures to ICE's customers instructing them on the requirements
           to submit invoices to DFC in a timely manner;
       • Continue to review and modify, as appropriate, the vendor maintenance tables in FFMS on a
           routine basis to ensure that attributes related to the Prompt Payment Act are accurate, thus
           allowing vendors who are due prompt payment interest to receive this interest; and

ICE - FMC 07-04 - Obligations are not being recorded in FFMS in a timely manner
(NFR No. ICE 07-04)

       In our review of 123 disbursements and 125 obligations made in FY 2007, we noted certain
       obligations were not recorded timely. Specifically:
       • Two instances where the period of performance per the invoice fell outside the period of
           performance per the obligating document;
       • 21 instances where the period of performance was prior to the obligation being recorded in
           FFMS; thus, it appears that services were rendered before the obligation was recorded in
           FFMS;
       • 11 instances where the invoice was received prior to the obligation being recorded in FFMS,
           which further supports that services were rendered before the obligation was recorded in the
           general ledger; and
       • 20 instances where the obligation was not recorded in FFMS timely after being awarded by
           the contracting officer.

       Recommendations:
       We recommend that all program offices and the Office of Acquisition Management:
       • Adhere to the existing policies and procedures to ensure that all obligations are entered into
          FFMS timely and prior to the period of performance or the receipt of any goods and/or
          services by the agency; and
       • Consider the feasibility of using the PRISM for all procurement needs of the entity.

       We also recommend that the ICE-OFM, in coordination with the Office of Acquisition
       Management:
       • Continue its efforts to implement an interface between PRISM and FFMS;
       • Develop and implement policies, procedures and controls to ensure the complete and accurate
          recording of all obligations within FFMS. These procedures should clearly delineate the
          responsibilities for authorizations and recording; and



                                                  15
                                                                                               Section IV
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2007


       •   Issue formal policies and procedures that outline steps to appropriately reconcile all
           obligations created in PRISM and any other procurement tracking systems, whether
           automated or manual, to the general ledger (i.e., FFMS). Specifically, the reconciliation
           should consist of the identification of differences between obligations created in PRISM, and
           all non-procurement actions created in other systems, as compared to the obligations recorded
           within FFMS. As differences are identified, management should research the causes and take
           corrective action.

ICE - FMC 07-05 - Inconsistent classification within FFMS for purchases of goods and the use of
receiving tickets (NFR No. ICE 07-05)

       We noted that the requisitioning of goods are inconsistently classified within FFMS. Out of a
       total combined sample of 326, there were 22 transactions that were inappropriately classified as
       services or miscellaneous, instead of the proper classification of "goods."

       Recommendations:
       We recommend that the ICE FMD:
       • Continue to implement controls to monitor the proper classification of obligations within
          FFMS;
       • Encourage the use of multiple distribution line item transactions to ensure that the
          classification is appropriate for the purchase type; and
       • Perform a detailed analysis of FY 2006 and prior open obligations to ensure that future
          activity (i.e. disbursements, modifications) are properly classified as a good or service in
          FFMS.

ICE - FMC 07-06 - Discrepancies with the leave balances between the NFC records and STAR
reports are not being researched and resolved timely (NFR No. ICE 07-06)

       We identified several instances in which annual leave and sick leave hours reported by the NFC
       did not agree to the annual and sick leave hours recorded in the STAR database. For those
       differences identified, we requested evidence (i.e., leave audits) of measures taken to correct the
       balance. Differences in the leave balances between the NFC records and STAR reports are not
       being researched and resolved timely. We noted that these errors remained outstanding over five
       pay periods subsequent to being identified.

       Recommendations:
       We recommend that:
       • Timekeepers adhere to existing policy and procedures by performing leave audits when
          discrepancies are reported by NFC and timely research and resolve the differences; and
       • The Office of Human Resources develop and implement controls to monitor the execution of
          its policies and procedures outlined in the Summary of Leave Audit Procedures, and
          identification and resolution of differences to ensure that they are being followed.




                                                   16
                                                                                               Section IV
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2007


ICE - FMC 07-07 - Lack of procedures to verify the receipt and acceptance of goods or services for
IPAC transactions (NFR No. ICE 07-07)

       ICE does not have procedures to verify the receipt and acceptance of goods or services when
       disbursements are processed through the IPAC system. This condition is applicable to ICE
       transactions and transactions of each of the DHS components for which ICE provides accounting
       services: USCIS, S&T, Preparedness, US-VISIT, and MGT.

       Recommendations:
       We recommend that:
       • The Dallas Finance Center adhere to its existing standard operating procedures for IPAC
          transactions;
       • The ICE-OFM examine current policies and procedures and enhance as necessary for post
          validation when disbursements are processed through the IPAC system. The procedures
          should clearly delineate the responsibilities of the Dallas Finance Center and ICE's program
          offices; and
       • The ICE-OFM develop and implement controls to monitor the execution of its policies and
          procedures, particularly related to IPAC transactions, to ensure that they are being followed.

ICE - FMC 07-08 - Inadequate and/or inconsistent supervisory review of payroll transactions
(NFR No. ICE 07-08)

       During our review of 45 ICE payroll transactions, we noted five instances where employees'
       STAR report was either not signed by the supervisor, did not properly reconcile to the employee
       timesheet, or was not adequately supported. Specifically, the following cases were noted:
       • The STAR report for three out of 45 employees was not properly authorized by the
           timekeeper and supervisor, as the STAR report was missing the required signatures.
       • The data reported on the timesheet for two out of 45 employees did not properly reconcile to
           the STAR report; as the quantity or classification of hours did not agree between the
           timesheet and STAR report.
       • The timesheet for one out of 45 employees was not provided to support the employees' STAR
           report.

       Recommendation:
       As the design of the newly implemented webTA will partially remediate the former control
       deficiencies, KPMG recommends that timekeepers and supervisors adhere to existing policies and
       procedures related to the comprehensive review and authorization of payroll transactions.

ICE - FMC 07-09 - Inadequate policies and/or procedures within the Ethics Office related to
Senior Executive Service (SES) employees (NFR No. ICE 07-09)

       ICE does not have documented policies and procedures to ensure annual disclosure of certain
       financial investments reported on the Public Financial Disclosure Report (SF-278s) are reviewed
       and certified in a timely manner prior to the annual dead-line. ICE currently utilizes a database to
       track SF-278s, however no policies and procedures are documented to identify and resolve aged
       SF-278s in the database. In addition, we noted that four out of five SF-278s we selected for



                                                   17
                                                                                                Section IV
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2007


       testwork were not reviewed in a timely manner (>60 days). We note that the review time for SF-
       278s may vary significantly based on the complexity of the information contained within them;
       however, the lack of policies and procedures leads to potential untimely reviews on "non-
       complex" SF-278s as well.

       Recommendation:
       We recommend that the Office of Ethics document their policies and procedures to ensure that
       SF-278s are reviewed and certified in a timely manner. Although we note ICE has added new
       personnel to this process, the review process is not yet operating effectively.

ICE - FMC 07-10 - Unauthorized approvals offree-form general journal entries
(NFR No. ICE 07-10)

       During our testwork over free-form general journal entries, we noted that eight out of a sample of
       85 selected were not approved by an authorized employee per the listing of the Designated
       General Journal Voucher Approvers located in the ICE-OFM General Journal EntlY Policy.

       Recommendations:
       We recommend that the Office of Financial Reporting:
       • Reiterate to all supervisors the existence of the procedures outlined in the General Journal
          Entry Procedures and re-emphasize the importance of adhering to policies and procedures;
       • Develop and implement controls to monitor the execution of its policies and procedures,
          particularly related to the authorization of general journal transactions, to ensure that they are
          being adhered to; and
       • Ensure that only Designated General Journal Voucher Approvers have the authority to
          approve free-form general journal entries.




                                                    18
                                                                                             Section V
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2007


V.     MANAGEMENT DIRECTORATE (MGT)

MGT - FMC 07-01- Obligations are not being keyed into FFMS in a timely manner
(NFR No. MGT 07-01)

       In our review of 52 disbursements and 57 obligations in FY 2007, we noted that obligations were
       not being recorded timely. Specifically:
       • Two instances where the period of performance on the invoice was outside of the period of
           performance specified by the obligation; thus, it appears that services were rendered before
           the obligation was recorded in FFMS
       • One instance where the period of performance was prior to the obligation being recorded in
           FFMS, which further supports that services were rendered before the obligation was recorded
           in the general ledger, and
       • 15 instances where the obligations were not recorded in FFMS timely after being awarded by
           the Contracting Officer.

       Recommendations:
       We recommend that the Departmental Operations Branch:
       • Adhere to the existing policies and procedures to ensure that all obligations are entered into
          FFMS timely and prior to the receipt of any goods and/or services by the agency.
       • Develop and implement controls to monitor the execution of its policies and procedures,
          particularly related to the timely recording of obligations within FFMS, to ensure that they
          are being followed.
       • Reconcile all obligations created in PRISM to the general ledger (i.e., FFMS). Specifically,
          the reconciliation should consist of the identification of differences between obligations
          created in PRISM and those recorded within FFMS. As differences are identified,
          management should research the causes and take immediate corrective action.




                                                  19
                                                                                            Section VI
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2007


VI.    PREPAREDNESS DIRECTORATE (PRE)

PRE - FMC 07-01 - Obligations are not being keyed into FFMS in a timely manner
(NFR No. PRE 07-02)

       We selected 52 obligations in FY 2007 for review, of which 15 were not recorded in a timely
       manner after being signed by the contracting officer.

       Recommendations:
       We recommend that the Finance Branch perfonn the following, until the interface between FFMS
       and PRISM is implemented:
       • Adhere to existing policies and procedures to ensure that all obligations are entered into
           FFMS timely and prior to the receipt of any goods and/or services by the agency;
       • Develop and implement controls to monitor the execution of its policies and procedures,
           particularly related to the timely recording of obligations within FFMS, to ensure that they
           are being adhered to; and
       • Reconcile all obligations created in PRISM to the general ledger (i.e. FFMS). Specifically,
           the reconciliation should consist of the identification of differences between obligations
           created in PRISM and those recorded within FFMS. As differences are identified,
           management should research the causes and take immediate corrective action.




                                                  20
                                                                                           Section VII
                                 Department of Romeland Security
                                 Financial Management Comments
                                       September 30, 2007


VII.   SCIENCE AND TECHNOLOGY DIRECTORATE (S&T)

S&T - FMC 07-01- Obligations are not recorded in FFMS timely (NFR No. S&T 07-01)

       We selected 47 obligations in FY 2007 for review, of which 13 were not recorded in a timely
       manner after the contracting officer approved the obligating document.

       Recommendations:
       We recommend that the Budget Execution and Finance Team continue to:
       • Monitor the execution of its policies and procedures, particularly related to the timely
          recording of obligations within FFMS, to ensure that they are being adhered to;
       • Perfonn weekly reconciliations of all obligations created in PRISM and any other
          procurement tracking systems, whether automated or manual, to the general ledger (i.e.,
          FFMS). As differences are identified, management should research the causes and take
          immediate corrective action; and
       • Coordinate with DRS Office of Procurement Operations, program and field offices to obtain
          approved documents in a more timely and efficient manner.

S&T - FMC 07-02 - Untimely resolution of issues identified during the reconciliation ofthe SF-132
and SF-133 (NFR No. S&T 07-02)

       Differences identified during S&T's reconciliation of the SF-132 and SF-133 were not resolved
       timely in FY 2007. A reconciling difference was noted for one Treasury Account Fund Symbol
       in the reconciliation perfonned for the month of March 2007, and then continued to exist during
       the reconciliations perfonned for the month of June 2007.

       Recommendations:
       We recommend that the Strategy, Policy, and Budget: S&T Financial Operations:
       • Prepare policies and procedures for taking the appropriate corrective action to timely resolve
          any differences identified by ICE-OFM during the SF-132/SF-133 reconciliation, within 30
          days of notification and
       • Indicate within the policies and procedures the responsibilties of the Strategy, Policy, and
          Budget: S&T Financial Operations to include, at a minimum, the threshold for which the
          submission of a revised SF-132 is deemed warranted, who is responsible for reviewing the
          reconciliation, and how to document review of the reconciliation.




                                                  21
                                                                                            Section VIII
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30,2007


VIII.   US-VISIT DIRECTORATE (USV)

USV - FMC 07-01- Obligations are not being keyed in FFMS in a timely manner
(NFR No. USV 07-01)

        In our review of 33 disbursements and 45 obligations in FY 2007, we noted that obligations were
        not being recorded timely. Specifically:
        • 11 obligations were not recorded in FFMS timely after being signed by the contracting
            officer; and
        • One instance where the period of performance was prior to the obligation being recorded in
            FFMS; thus, it appears that services were rendered before the obligation was recorded in
            FFMS.

        Recommendations:
        We recommend that the Finance Branch perfonn the following, until the interface between FFMS
        and PRISM is implemented:
        • Adhere to existing policies and procedures to ensure that all obligations are entered into
            FFMS timely and prior to the receipt of any goods and/or services by the agency;
        • Develop and implement controls to monitor the execution of its policies and procedures,
            particularly related to the timely recording of obligations within FFMS, to ensure that they
            are being adhered to; and
        • Reconcile all obligations created in PRISM to the general ledger (i.e. FFMS). Specifically,
            the reconciliation should consist of the identification of differences between obligations
            created in PRISM and those recorded within FFMS. As differences are identified,
            management should research the causes and take immediate corrective action




                                                   22
                                                                                           Section IX
                                 Department of Homeland Security
                                 Financial Management Comments
                                       September 30, 2007


IX.    TRANSPORTATION SECURITY ADMINISTRATION (TSA)

TSA - FMC 07-01 - Letters of intent accrual for June 30, 2007 (NFR No. TSA 07-01)

       TSA accrued $46,984,738 for seven of the eight letters of intent (LOIs) at June 30, 2007. We
       noted the following differences, resulting in an under-accrual of $24,750,522:
       • TSA did not accrue for the Hartsfield-Jackson International Airport LOI and received a
           confirmation on July 17,2007 that indicated $22,495,499 should have been accrued.
       • TSA accrued $1,193,806 for the Seattle-Tacoma International Airport LOI when the total
           amount of the confirmation received June 28, 2007 indicated that $3,656,341 should have
           been accrued.
       • TSA accrued $1,148,209 for the Phoenix Sky Harbor International Airport LOI when the
           amount of the confirmation received July 16,2007 indicated $940,697.
       These errors occurred because TSA does not have a sufficient methodology in place to estimate
       accruals when a timely confirmation is not received. Furthermore, the accrual for the Seattle-
       Tacoma International Airport LOI was not recorded as indicated on the confirmation due to
       human error

       Recommendations:
       We recommend that TSA:
       • Implement a process to ensure that the accrual amounts recorded based on confirmations
          received are reviewed for accuracy; and
       • In cases where a confirmation is not received, implement formal, documented policies and
          procedures for LOI estimates to ensure a complete and accurate TIER file is submitted each
          quarter.

TSA - FMC 07-02 - Required Supplementary Stewardship Information (NFR No. TSA 07-10)

       We noted TSA's draft FY 2007 Required Supplementary Stewardship Information (RSSI),
       specifically investments in human capital and research and development, did not report outcomes
       and outputs as required by OMB Circular A-136.

       Recommendation:
       We recommend that TSA develop and implement procedures to develop and track relevant
       outcomes and outputs and report them as part of RSSI.




                                                 23
                                                                                                 Section X
                                   Department of Homeland Security
                                   Financial Management Comments
                                         September 30, 2007


X.     UNITED STATES SECRET SERVICE (USSS)

USSS - FMC 07-01 - Seized counterfeit currency reporting (NFR No. USSS 07-01)

       We noted the Counterfeit Currency System (CCS) does not conform to Joint Financial
       Management Improvement Program standards. Specifically, CCS does not provide accurate and
       timely reconciliations between the physical records maintained at field offices and the system.
       To compensate for the system limitations, USSS prepares a reconciliation spreadsheet to track the
       transfers, changes, seizures, and destructions of counterfeit currency. However, due to the timing
       of the receipt of these spreadsheets, we could not complete our procedures over the reconciliation
       prior to the department's reporting deadlines.

       Recommendations:
       We recommend that the:
       • Forensic Services Division (FSD) and the Financial Management Division continue working
          with the field offices to provide training and ensure the offices are aware of the reconciliation
          process and the timeframe for submitting information; and
       • FSD continue to strengthen the seized property repOlting process so that the monthly
          reconciliations are completed in a timely manner, and supporting evidence is made available
          for amounts reported.

USSS - FMC 07-02 - Pension liability reporting (NFR No. USSS 07-02)

       During our pension test work over the data related to active employees, we noted certain errors in
       the salary information submitted to USSS' actuary for the pension liability calculation.
       Specifically, for 12 of the 45 active pension employees tested, we noted the salmy information
       submitted to the actuary did not agree with the salary information contained in their Official
       Personnel Folders.

       Recommendation:
       We recommend that USSS develop and implement policies and procedures to review the pension
       data for accuracy prior to submitting it to the actuary.




                                                   24
                                                                                            Section XI
                                  Department of Homeland Security
                                  Financial Management Comments
                                        September 30, 2007


XI.    CONSOLIDATED (CONS)

CONS - FMC 07-01 - Tracking system for ethics training, public financial disclosures, and
confidential reports (NFR No. CONS 07-02)

       DHS does not have department-wide procedural guidance for financial disclosure reporting and
       tracking. The lack of published procedural guidance contributes to the Designated Agency Ethics
       Officer's (DAEO) inability to assert that all DHS employees, who are required to complete ethics
       training and comply with Office of Government Ethics filing requirements, are properly tracked
       and monitored for compliance.

       Recommendations:
       We recommend that the DAEO, in conjunction with the Chief Human Capital Officer and the
       Office of the Chief Information Officer, as appropriate:
       • Continue to work to finalize and issue procedural guidance for financial disclosure repOlting
           and department-wide supplemental ethics guidance; and
       • Continue to develop and implement a system to ensure all employees who must complete
           financial disclosure reports/ethics training are identified and monitored annually.

CONS - FMC 07-02 - Completeness ofDHS reported Treasury Account Fund Symbols
(NFR No. CONS 07-10)

       During our review of the Treasury Account Fund Symbol (TAFS) included in the DHS TIER
       system, we noted OFM did not perform a fully effective review of the TAFS repOlted in TIER, as
       its control procedures did not include a comparison between TIER and the Government Wide
       Accounting and Reporting (GWA) system. Specifically, we noted a trial balance was not
       generated for TSA's TAFS 70F3880.20 as it is currently reported as "defunct" in TIER.
       However, per review of the GWA system, this TAFS had an ending balance in SGL account 1010
       - Fund Balance with Treasury as of June 30, 2007 and should have been reflected as active within
       TIER.

       Recommendations:
       We recommend that OFM:
       • Periodically compare the GWA system to TIER to ensure the completeness and existence of
          TAFS reported in TIER. OFM should especially review the GWA system prior to changing
          TAFS to defunct to ensure that no balances exist. In addition, management approval for
          changes to the TAFS included in TIER should be documented and available for review; and
       • Determine if other defunct funds have a balance in the GWA system. For the fund identified
          above and any other funds identified, work with the related DHS component personnel to
          ensure that balances are properly reported and/or GWA is appropriately updated and all
          considerations are adequately documented.

CONS - FMC 07-03 - Preparation of the departmental legal letter (NFR No. CONS 07-15)

       The case briefs provided by the Office of General Counsel (OGC) detailing litigation and claims
       against the Department, in support of the 'interim' Legal Representation Letter, dated August 8,
       2007, did not initially provide sufficient detail to conclude on OGC's assessment or support the
       Department's legal liability and related disclosures in the financial statements.


                                                  25
                                                                                              Section XI
                                 Department of Romeland Security
                                 Financial Management Comments
                                       September 30, 2007



      The Internal Control over Financial Reporting (ICoFR) Program Management Office (PMO)
      contacted the component Counsel, and requested additional information. We noted the following
      related to this additional information:
      • 14 of the 61 updated case briefs received from the component Counsel did not address the
          comments/questions raised by ICoFR PMO.
      • Six cases were updated on the Management Schedule based upon additional information
          obtained from the component Counsel; however, neither ICoFR PMO nor OGC provided
          documented support for these changes (e.g. updated case template, historical claims analysis,
          etc ...).
      • Instances existed where the responses from the component Counsel did not fully address
          ICoFR PMO's comments/questions; however, ICoFR PMO indicated, "No additional work
          considered necessary."

      Additionally, we reviewed the 'interim' Management Schedule prepared by ICoFR PMO in
      support of the 'interim' Legal Representation Letter and noted that the schedule contained
      numerous errors and omissions. The identified errors were the result of both clerical inaccuracies
      and misapplications of generally accepted accounting principles. The overall effect of these
      discrepancies was a potential overstatement of approximately $88 million, or 40% of DRS'
      $218 million balance for contingent legal liabilities.

      Recommendations:
      We recommend that:
      • ICoFR PMO and OGC work to establish formal policies and procedures emphasizing the
         need for thorough, complete, and understandable responses in the legal letter. Additionally,
         ICoFR PMO should define the type and extent of information necessary to ensure that
         information in the management schedule and financial statements and related disclosures for
         contingent liabilities is complete and accurate; and
      • ICoFR PMO gather/update this information on a periodic basis.

CONS - FMC 07-04 - Restatement of FY 2006 balances (NFR No. CONS 07-20)

      DRS did not have effective controls in place to timely identify and correct misstatements
      recorded in its FY 2006 financial statements. The FY 2007 DRS Agency Financial Report (AFR)
      contains restatements of prior year balances, which were made throughout the FY in varying
      degrees of amounts and frequency to correct misstatements not identified until FY 2007. This
      condition is communicated at the consolidated level as the majority of DRS components restated
      their prior year balances.

      Recommendation:
      We recommend that DRS continue to document the financial reporting process, identify the
      source and cause of the misstatements, if not already identified, and establish adequate corrective
      procedures within the financial reporting process.

CONS - FMC 07-05 - Policies and procedures related to imputed costs (NFR No. CONS 07-21)

      Throughout the first eight months of FY 2007, DRS lacked department-wide guidance on how to
      account for imputed intra-departmental costs in accordance with the requirements Federal


                                                  26
                                                                                          Section XI
                                Department of Homeland Security
                                Financial Management Comments
                                      September 30, 2007


      Accounting Standards Advisory Board (FASAB) Interpretation No.6, Accounting for Imputed
      Intra-departmental Costs: An Interpretation of SFFAS No.4. We noted DHS issued guidance
      during the third and fourth quarters; however, due to the timing of these issuances, components
      may not have had sufficient time to fully evaluate and identify imputed costs that should be
      recognized prior to the end ofFY 2007.

      Recommendation:
      We recommend DHS continue to work with components to completely and accurately implement
      existing guidance related to FASAB Interpretation No.6.

CONS - FMC 07-06 - Earmarked funds (implementation of SFFAS No. 27) (NFR No. CONS 07-22)

      Based on our review of the supporting documentation across the various components, we noted
      the following:
      • Coast Guard management did not sufficiently document its process to evaluate and identify
          its eannarked funds as required by DHS OFM. In addition, the Coast Guard did not maintain
          source documentation to support its analysis and rationale for detennining each fund's
          classification as required by OFM.
      • ICE management misclassified funds 70X8597 and 70X8598, Violent Crime Reduction funds,
          as eannarked funds at the time of testwork.

      Recommendations:
      We recommend that OFM:
      • Perfonn a review of eannarked funds on an annual basis; and
      • Incorporate the component management assessment of its eannarked funds into the Chief
         Financial Officer certification process, including compliance with the relevant standard
         operating procedures.




                                                27
                                                                                                              Appendix A
                               Department of Homeland Security
                      Crosswalk - Financial Management Comments to NFRs
                                       September 30, 2007


                                                                                                Disposition        ,


                                                                                             AFR         'FMC
             NFR
Compol1ent                                    Description                                MW        SD   "~ge     No.
             No.
  CONS       07-01   Perfonnance Results Act of 1993 (GPRA) non-compliance                         N
                     Tracking system for ethics training, public financial
  CONS       07-02                                                                                       25      07-01
                     disclosures, and confidential reports
  CONS       07-03   Audited financial statements                                                  M
                     FY 2007 beginning balance reconciliation and prior year
  CONS       07-04                                                                       B
                     restatements
  CONS       07-05   Budget and Finance Policies and Management Directives               B
                     June 30, 2007 consolidated financial statement and supporting
  CONS       07-06                                                                       B
                     documentation review
  CONS       07-07   Topside adjustments                                                 B
  CONS       07-08   Review of component financial infonnation                           B
  CONS       07-09   Review of consolidated financial infonnation                        B
                     Completeness of DHS reported Treasury Account Fund
  CONS       07-10                                                                                       25      07-02
                     Symbols
                     Lack of compliance with Debt Collection Improvement Act
  CONS       07-11                                                                                 0
                     (DCIA) of 1996
  CONS       07-12   Oversight of parent/child reporting                                 B
                     Statement of Net Cost (SNC) methodologies and IT systems
  CONS       07-13                                                                       B
                     functionality
  CONS       07-14   Improper Payment Improvement Act (IPIA) compliance                            L
  CONS       07-15   Preparation of the Departmental legal letter                                        25      07-03
                     Controls over the intragovemmental confinnation and
  CONS       07-16                                                                       B
                     reconciliation process
  CONS       07-17   Configuration of the Transaction Elimination Pairs report           B         J
                     Lack of compliance with Federal Financial Management
  CONS       07-18                                                                       B         J
                     Improvement Act (FFMIA)
                     Lack of compliance with OMB Circular A-50, Audit Follow-
  CONS       07-19                                                                                 K
                     up and the Inspector Generals Act
  CONS       07-20   Restatement ofFY 2006 balances                                                      26      07-04
  CONS       07-21   Policies and procedures related to imputed costs                                    26      07-05
  CONS       07-22   Eannarked funds (Implementation of SFFAS No. 27)                                    27      07-06
                                                                                         ;;;)             ;,;;         ; e.);;;
                                                                    ;.;:;;."p;;:}).;;:
   CBP       07-01   Verification of CPL and certification of payments                             H
   CBP       07-02   Detection of excessive drawback claims                                        H
                     Insufficient retention period for documents that support
   CBP       07-03                                                                                 H
                     drawback claims
                     ACS deficiency over the accumulation of claims against a
   CBP       07-04                                                                                 H
                     drawback bond
                     Customs and Border Protection is unable to effectively
   CBP       07-05                                                                                 H
                     monitor and close in-bond entries on a consistent basis
                     System integration and compliance with the USSGL at the
   CBP       07-06                                                                                 H
                     transaction level
                     ACS deficiencies over non-entity account receivable and
   CBP       07-07                                                                                 H
                     CBP's ability to effectively monitor collection actions
                     ACS limitations - review of prior related drawback claims and
   CBP       07-08                                                                                 H
                     selectivity for underlying consumption entries



                                                        28
                                                                                                              Appendix A
                               Department of Homeland Security
                      Crosswalk - Financial Management Comments to NFRs
                                       September 30, 2007


                                                                                                                 ,
                                                                                               Disppsitipn
                                                                                             AFR         "FMC
Cpmponent
            NFR                              Description                               MW          SD   Pllge
            No.
  CBP       07-09   Number not used                                                   Not applicable
  CBP       07-10   Weaknesses in the management of environmental liabilities                            3      07-01
  CBP       07-11   Overpayment of drawback claims                                                 H
  CBP       07-12   Failure to perform a full desk review                                          H
  CBP       07-13   Insufficient guidance related to the D28 Alert Report                          H
  CBP       07-14   National Account Manager Program                                               H
                    Weaknesses identified in the bonded warehouses foreign trade
  CBP       07-15                                                                                  H
                    zone process and procedures
                    Weaknesses in the requirements related to the monitoring,
  CBP       07-16   review, and oversight relating to the efficiency of completion                 H
                    of FP&F cases
  CBP       07-17   Weakness in the Compliance Measurement Program                                 H
  CBP       07-18   Weakness in the review ofweekly/monthly entry edit reports                     H
  CBP       07-19   Lack offormal procedures for Strategic Trade Centers (STC)                     H
                    Review of Byrd disbursement claims (overpayment of Byrd
   CBP      07-20                                                                                  H
                    claims)
   CBP      07-21   Weaknesses in CBP's controls related to asset retirements                             3     07-02
                    Untimely capitalization of assets from internal use software in
   CBP      07-22                                                                                         3     07-03
                    develo ment to internal use software


  FEMA      07-01   Lack of sufficient grants accrual methodology                       A, F
                    Financial monitoring of grants awarded by the former Office
  FEMA      07-02                                                                        F         K
                    of Grants and Training (G&T)
                    Inadequate inventory procedures at FEMA's Fort Worth
  FEMA      07-03                                                                       A,E
                    Logistics Center
                    Non-grant unliquidated obligations (ULOs) within the former
  FEMA      07-04                                                                        G
                    G&T not de-obligated timely
                    Untimely clearing of items from the suspense account
  FEMA      07-05                                                                        A
                    70F3876
                    Lack of segregation of duties related to preparation and
  FEMA      07-06                                                                        A
                    approval ofjournal vouchers
  FEMA      07-07   Lack of current Anti-deficiency Act policies and procedures          A
                    Ineffective controls over processing mission assignment
  FEMA      07-08                                                                        A
                    payments
  FEMA      07-09   Untimely de-obligation of mission assignments                      A,G
                    Unavailability of supporting documentation for undelivered
  FEMA      07-10                                                                        G
                    orders
  FEMA      07-11   Grants not closed and deobligated timely                           A,G
                    Unavailability of supporting documentation for the reporting
  FEMA      07-12 of internal use software and internal use software in                                   5     07-01
                    development
                    Non-compliance with 5 CFR Part 2638 related to ethics
  FEMA      07-13                                                                                         5     07-02
                    training
                    Lack of segregation of duties within the financial reporting
  FEMA      07-14                                                                        A
                  I process

  FEMA      07-15   Lack of re-evaluation procedures over the allowance for              A




                                                       29
                                                                                                                        Appendix A
                               Department of Homeland Security
                      Crosswalk - Financial Management Comments to NFRs
                                       September 30, 2007


                                                                                                 Disposition
                                                                                           AFR                           FMC
            NFR
Component                                     Description                             MW             SD         Page
            No.
                    doubtful accounts

  FEMA      07-16   NEMIS auto-detennination process needs improvement                                              5          07-03
                      Unavailability of supporting documentation for certain entity
  FEMA      07-17                                                                     A
                      level controls
                      Incomplete year-end accounts payable accruals related to fire
  FEMA      07-18                                                                                                   6           07-04
                    I grants

                      Lack of fonnal policies and procedures for entity level
  FEMA      07-19                                                                     A,E
                      controls, financial reporting, and funds management
                      Monitoring of audit findings in accordance with OMB Circular
  FEMA      07-20                                                                     A              K
                      Nos. A-l33 and A-50, and related compliance matters
  FEMA      07-21   FMFIA non-compliance                                                              I
                    Non-compliance with the Improper Payment Improvement Act
  FEMA      07-22                                                                                    L
                    of2002
  FEMA      07-23  Legal liabilities                                                                                6           07-05
                    Lack of segregation of duties in accounting for the direct loan
  FEMA      07-24                                                                     A
                  I program and direct loan subsidy rate calculation
                    Significant errors identified in year-end flood insurance
  FEMA      07-25                                                                      A
                   journal entries
  FEMA      07-26    Ineffective internal controls over FEMA grants                                                 6           07-06
                    Incorrect application of the consumption method related to
  FEMA      07-27                                                                      E
                    stockpile inventory
                    Temporary adjustments of Fund Balance with Treasury
  FEMA      07-28                                                                                                   7           07-07
                    reconciling differences
                    Review for property, plant, and equipment acquired at year-
  FEMA      07-29                                                                                                   7           07-08
                    end
  FEMA      07-30    Ineffective controls over journal vouchers                                                      7          07-09
  FEMA      07-31    Recording oftransactions in Fund 36                                                             8          07-10
  FEMA      07-32    Inherited problems in G&T's Integrated Financial                                               8           07-11

                                                                            i;;.;.
                                                                                       . . . . .;;.;.;!;;.
                                                                                                 .
                                                                                                             . . .····if.···} ;;,;i·;•• ~.~•..
                                                                                                     .... ; ... "';..
   CIS      07-01   Need ~or refinement ofthe deferred revenue quality assurance                                    9           07-01
                    analYSIS methodology
                    Fee receipts are not being deposited in a timely manner per
   CIS      07-02                                                                                                  10           07-02
                    Treasury guidance at USCIS service centers
                    RNACS improperly reflects completed naturalization
   CIS      07-03                                                                                                   10          07-03
                    applications as pending
   CIS      07-04    Completeness of deferred revenue                                                               10          07-04
                     Applications included in deferred revenue at incorrect fee
   CIS      07-05                                                                                                  11           07-05
                     amounts
                     Obligations are not being recorded in FFMS in a timely
   CIS      07-06                                                                                                   II          07-06
                     manner
                     Discrepancies with the leave balances between the NFC
   CIS      07-07    records and STAR reports are not being researched and                                          II          07-07
                     resolved timely
                     Untimely resolution of issues identified during the
   CIS      07-08                                                                                                   12          07-08
                     reconciliation of the SF-l32 and SF-133
                     Errors in perfonnance of the deferred revenue quality
   CIS      07-09                                                                                                   12          07-09
                     assurance procedures at the Washington District Office




                                                        30
                                                                                                          Appendix A
                               Department of Homeland Security
                      Crosswalk - Financial Management Comments to NFRs
                                       September 30, 2007



                                                                                            Dispositiol1
                                                                                          AFR
            NFR
Component
            No.
                                             Description                              MW        SD
                    Inadequate internal controls over the inventory of applications
   CIS
                    awaitin rocessin at the service centers


                    Untimely execution of reimbursable agreements with other
   ICE
                     overnmental entities when ICE is erformin the services
                    Untimely resolution of issues identified during the
   ICE      07-02                                                                                    14     07-02
                    reconciliation of the SF-l32 and SF-l33
                    Untimely disbursement of payments to vendors and incorrect
   ICE      07-03                                                                                    14     07-03
                    calculation of interest due ursuant to the Prom t Pa ment Act
                    Obligations are not being recorded in FFMS in a timely
   ICE      07-04                                                                                    15     07-04
                    manner
                    Inconsistent classification within FFMS for purchases of goods
   ICE      07-05                                                                                    16     07-05
                    and the use of receivin tickets
                    Discrepancies with the leave balances between the NFC
   ICE      07-06   records and STAR reports are not being researched and                            16     07-06
                    resolved timel
                    Lack of procedures to veritY the receipt and acceptance of
   ICE      07-07                                                                                    17     07-07
                      oods or services for IPAC transactions
                    Inadequate and/or inconsistent supervisory review of payroll
   ICE                                                                                               17     07-08
                    transactions
                    Inadequate policies and/or procedures within the Ethics Office
   ICE                                                                                               17     07-09
                    related to Senior Executive Service SES em 10 ees
                    Unauthorized approval of free- form general journal entries                      18     07-10




   TSA      07-01   Letters of intent accrual for June 30, 2007                                      23     07-01
   TSA      07-02   Accrued leave balances                                            F
   TSA      07-03   PP&E depreciation                                                 E
   TSA      07-04   Incorrect trading partner codes                                   B
   TSA      07-05   Undelivered order balances                                        G
   TSA      07-06   Construction in Progress (CIP)                                    E
   TSA      07-07   Reconciliation of property, plant, and equipment                  E




                                                        31
                                                                                                                          Appendix A
                                      Department of Homeland Security
                             Crosswalk - Financial Management Comments to NFRs
                                              September 30, 2007



                                                                                                          Disposition
                                                                                                  ",AFR                'FMC
                    NFR
Component                                             Description                                 MW       SD      Page        No.
                     No.
  TSA               07-08   Use ofUSSGL account 1890                                                E
  TSA               07-09   Financial reporting deficiencies                                        B
  TSA               07-10   Required Supplementary Stewardship Infonnation                                           23       07-02
  TSA               07-11   Debt Collection Improvement Act (DCIA) compliance                              0
                            Allowance for Doubtful Accounts and Related Accounts
  TSA               07-12                                                                       Issued after 12121/2007
                            Receivable Methodology
  TSA               07-13   Non-compliance with FFMIA                                                       J
  TSA               07-14   Non-compliance with FMFIA                                                       I
                            Grant monitoring and compliance with OMB Circular
  TSA               07-15                                                                      Issued after 12/21/2007
                            No. A-133
  TSA               07-16   Non-Compliance with Human Resources Related Laws                   Issued after 12/21/2007
  TSA               07-17   Core Accounting System (CAS) Generated Accounts Payable            Issued after 12/21/2007
   ';';;·'ii!iy,;                                                      >:1';'>     ·;)·;·;.W!·G!.;;~!'i    ';;'",."'" Xi/';;'; ('.... y!
  USCG              07-01   Statement of Net Cost                                                   B
  USCG              07-02   Contracting officer warrant authority                                   G
  USCG              07-03   Accounts payable accrual                                                 F
  USCG              07-04   Purchase requests/commitments                                           G
  USCG              07-05   Facts and figures quick report tool                                     B
  USCG              07-06   Operating materials & supplies                                           E
  USCG              07-07   Payroll accrual and unfunded leave accrual                               F
  USCG              07-08   PP&E construction in process (CIP)                                       E
  USCG              07-09   Actuarial post-employment travel liability                               F
  USCG              07-10   PP&E Repairables                                                         E
  USCG              07-11   Deepwater obligations process                                           G
  USCG              07-12   Actuarial medical liability                                              F
  USCG              07-13   Intragovemmental transactions and balances                              B
  USCG              07-14   Confidential financial disclosure reports (CFDRs)                       A
  USCG              07-15   Environmental liability                                                  F
  USCG              07-16   Actuarial pension liability                                              F
  USCG              07-17   Accounts receivable                                                     B
  USCG              07-18   PP&E asset records                                                       E
  USCG              07-19   Undelivered orders                                                       G
  USCG              07-20   Cumulative results of operations (CRO) analysis                         B
  USCG              07-21   Federal Financial Management Improvement Act (FFMIA)                     B
  USCG              07-22   FBwT - reconciliation / military & civilian payroll processes            D
  USCG              07-23   PP&E non-construction in process (CIP) assets                            E
  USCG              07-24   Federal Manager Financial Integrity Act                                         I
  USCG              07-25   Suspense accounts                                                        D




                                                                  32
                                                                                          Appendix A
                               Department of Homeland Security
                      Crosswalk - Financial Management Comments to NFRs
                                       September 30, 2007



                                                                           Disposition
                                                                         AFR              FMC

Component
            NFR                                 Description                    SD   Page
                                                                    MW                       No.
            No.
  USCG      07-26   Vessels and small boats useful lives             E
  USCG      07-27   Year-end pipeline adjustment                     F
  USCG      07-28   Legal liability reporting                        F
  USCG      07-29   Financial management oversight                   A
  USCG      07-30   Financial statement disclosures                  B
  USCG      07-31   Financial reporting process                      B


                    Seized counterfeit currency reporting                            24     07-01
                    Pension liability reporting                                      24     07-02




                                                        33
                                                                                                         Appendix B
                                   Department of Homeland Security
                                      Status ofPrior Year NFR 's
                                          September 30, 2007



                                                                                                                   .'



                                                                                           Disposition
            NFR
Component                                   Description                           Closed   Repe~t (07NFR No.)
            No.
  CONS      06-01   Perfonnance and Accountability Report guidance                  X
  CONS      06-02   Statement of net cost allocations                                          CONS 07-13
  CONS      06-03   Prepared by client submissions                                  X
  CONS      06-04   Eannarked funds (SFFAS No. 27 implementation)                          CONS 07-22 (partial)
  CONS      06-05   March 2006 financial statement review                                      CONS 07-06
  CONS      06-06   FY2006 beginning balances reconciliation                                   CONS 07-04
  CONS      06-07   Audit requirements                                                         CONS 07-03
  CONS      06-08   Restatements                                                               CONS 07-20
  CONS      06-09   Ethics tracking                                                            CONS 07-02
  CONS      06-10   Desk officer monitoring                                                    CONS 07-08
  CONS      06-11   Legal letter                                                           CONS 07-15 (partial)
  CONS      06-12   Imputed financing sources                                              CONS 07-21 (partial)
  CONS      06-13   Financial Statement Checklist                                              CONS 07-09
  CONS      06-14   Presentation of earmarked funds                                        CONS 07-22 (partial)
  CONS      06-15   June PAR                                                                   CONS 07-06
  CONS      06-16   Roles and responsibilities                                      X
  CONS      06-17   Fund symbols review                                                        CONS 07-10
  CONS      06-18   Management directives                                                      CONS 07-05
  CONS      06-19   Financial Statement and Supporting documentation review                    CONS 07-06
  CONS      06-20   Debt Collection Improvement Act (DCIA)                                     CONS 07-11
  CONS      06-21   Preparation of the department legal letter and mgt schedule                CONS 07-15
  CONS      06-22   Management representation letter                                X
  CONS      06-23   Controls over the intra-governmental eliminations process                  CONS 07-16
  CONS      06-24   Top-side adjustments                                                       CONS 07-07
                    OMB Circular A-50, entity level controls, financial
  CONS      06-25                                                                              CONS 07-19
                    reporting
  CONS      06-26   Entity level controls                                           X
  CONS      06-27   Improper Payment Act compliance                                            CONS 07-14
                    Configuration of Transaction by Elimination Pairs (TEP)
  CONS      06-28                                                                              CONS 07-17
                    report
  CONS      06-29   Monitoring oflaws and regulations                               X
  CONS      06-30   Government Perfonnance and Results Act (GPRA)                   X
                                                                                    ,                    ,fief 'f!ff:'

   CBP      06-01   Verification of CPL and certification of payments                          CBP 07-01
   CBP      06-02   Detection of excessive drawback claims                                     CBP 07-02
                    Insufficient retention period for documents that support
   CBP      06-03                                                                               CBP 07-03
                    drawback claims
                    ACS deficiency over the accumulation of claims against a
   CBP      06-04                                                                               CBP 07-04
                    drawback bond
                    ACS deficiencies over non-entity account receivable and
   CBP      06-05                                                                              CBP 07-07
                    CBP's ability to effectively monitor collection actions



                                                        34
                                                                                                             Appendix B
                                     Department of Homeland Security
                                        Status ofPrior Year NFR 's
                                            September 30, 2007



                                                                                               Disposition
               NFR
ClIlllPonent                                   Description                            Closed   Repeat (07 NFR No,)
                No.
   CBP         06-06   Compliance with FFMIA                                                        CBP 07-06
   CBP         06-07   Implementation of SFFAS No.4, Interpretation No.6                X
   CBP         06-08   Drawback record keeping deficiency                               X
   CBP         06-09   Various findings during FY2006 drawback control testwork         X
                       Failure to complete full desk reviews and supervisory
   CBP         06-10                                                                                CBP 07-12
                       reviews before deem liquidation
   CBP         06-11   Review of prior related drawback claims                                      CBP 07-08
   CBP         06-12   Unable to obtain UCE's for drawback                              X
   CBP         06-13   Duplicate payment of the same drawback claim                     X
                       Lack of formal procedures for Strategic Trade Centers
   CBP         06-14                                                                                CBP 07-19
                       (STC)
                       Absence of a full desk review (FDR) for protested drawback
   CBP         06-15                                                                    X
                       claims
   CBP         06-16   ACS selectivity for underlying consumption entries                           CBP 07-09
   CBP         06-17   Insufficient evaluation criteria for account managers                        CBP 07-14
                       Weaknesses in review of weekly and monthly entry edit
   CBP         06-18                                                                                CBP 07-18
                       reports
                       Overpayment of drawback claim due to ACS/deem
   CBP         06-19                                                                                CBP 07-11
                       liquidation
   CBP         06-20   In-bond compliance review process                                            CBP 07-05
   CBP         06-21   Financial statement presentation                                 X
                       Customs bonded warehouses foreign trade zone process
    CBP        06-22                                                                                CBP 07-15
                       deficiencies
   CBP         06-23   Weakness in the Compliance Measurement Program                               CBP 07-17
    CBP        06-24   Property, plant, and equipment FY2005 misstatement               X
    CBP        06-25   Weaknesses in the management of environmental liabilities                    CBP 07-10
    CBP        06-26   Improper Payment Act compliance                                  X


                       Lack of segregation of duties related to preparation and
   FEMA        06-01                                                                               FEMA 07-06
                       approvalofjoumal vouchers
                       Ineffective controls over processing mission assignment
   FEMA        06-02                                                                               FEMA 07-08
                     I payments
                       Non-compliance with DHS Management Directive 0480.1 -
   FEMA        06-03                                                                           FEMA 07-13 (partial)
                       Ethics/Standards ofConduct
  FEMA         06-04   Mission assignment obligations in excess of the agreement        X
   FEMA        06-05   Statement of Net Cost (SNC) allocation methodology               X
   FEMA        06-06   Untimely clearing of items from the suspense account                        FEMA 07-05
   FEMA        06-07   Lack of current Anti-deficiency Act policies and procedures             FEMA 07-07 (partial)
                       Unavailability of supporting documentation for certain
   FEMA        06-08                                                                           FEMA 07-17 (partial)
                       financial transactions
   FEMA        06-09   Untimely de-obligation of mission assignments                           FEMA 07-09 (partial)
   FEMA        06-10   Recording of transactions in Fund 36                                        FEMA 07-31
                       Unavailability of supporting documentation for undelivered
   FEMA        06-11                                                                               FEMA 07-10
                       orders
   FEMA        06-12   Unavailability of supporting documentation for the reporting            FEMA 07-12 (partial)




                                                         35
                                                                                                            Appendix B
                                   Department of Homeland Security
                                      Status ofPrior Year NFR 's
                                          September 30, 2007



                                                                                             j)isposition
            NFR
Component                                   Descriptioll                           Closed    Repeat(OiJ NFR No.)
            No.
                    of internal use software and internal use software in
                    development
                    Lack of segregation of duties in accounting for the loan
  FEMA      06-13   program and inadequate support for the subsidy rate                      FEMA 07-24 (partial)
                    calculation
                    Various findings related to testwork over OMB A-133 and
  FEMA      06-14                                                                                   FEMA 07-20
                    A-50
                    Compliance with the Debt Collection Improvement Act of
  FEMA      06-15                                                                     X
                    1996
                    Incomplete Year-end Accounts Payable Accrual Related to
  FEMA      06-16                                                                     X
                    Mission Assignments
                    Recognition of National Flood Insurance Program (NFlP)
  FEMA      06-17                                                                     X
                    flood claim obligations
                    Impact of the Department of Health & Human Services
  FEMA      06-18                                                                     X
                    (HHS) SAS 70 report
  FEMA      06-19   FMFIA - Section 2                                                        FEMA 07-21 (partial)
                    Non-compliance with the Improper Payment Improvement
  FEMA      06-20                                                                                   FEMA 07-22
                    Act
  FEMA      06-21   FMFIA - Section 4                                                        FEMA 07-21 (partial)
                    Review for property, plant, and equipment acquired at fiscal
  FEMA      06-22                                                                                   FEMA 07-29
                  I year-end

                    Timely and accurate recording of manufactured housing
  FEMA      06-23                                                                     X
                    property in LIMS
  FEMA      06-24   Legal letter                                                             FEMA 07-23 (partial)
                    Incomplete year-end accounts payable accruals related to
  FEMA      06-25                                                                                   FEMA 07-18
                    fire grants
                    Untimely processing ofIPAC transactions in Treasury
  FEMA      06-26                                                                     X
                    account fund symbol (TAFS) 7050711
                    Improving certain processes related to the National Flood
  FEMA      06-27                                                                     X
                    Insurance Program at FEMA
                    Improving Flood Insurance Processes Related to
  FEMA      06-28                                                                     X
                    Accelerated Financial Reporting Deadlines
                    Lack of formal policies and procedures for entity level
  FEMA      06-29                                                                            FEMA 07-19 (partial)
                    controls, financial reporting, and funds management
                    Lack of validation procedures over accounts payable
  FEMA      06-30                                                                     X
                    accruals
                    Temporary adjustments to Fund Balance with Treasury
  FEMA      06-31                                                                                   FEMA 07-28
                    reconcilin differences
                                                                       «',irs; \;:;:;~:\::G';\2::i;J
  G&T       06-01   See Information Technology Management Letter                   Not applicable
  G&T       06-02   See Information Technology Management Letter                   Not applicable
   G&T      06-03   See Information Technology Management Letter                   Not applicable
   G&T      06-04   See Information Technology Management Letter                   Not applicable
  G&T       06-05   See Information Technology Management Letter                   Not applicable
   G&T      06-06   See Information Technology Management Letter                   Not applicable
   G&T      06-07   See Information Technology Management Letter                   Not applicable
   G&T      06-08   Grants not closed timely                                                        FEMA 07-11
                    Financial monitoring of grants awarded by the Office of
   G&T      06-09                                                                                   FEMA 07-02
                    State and Local Government Coordination and Preparedness




                                                      36
                                                                                                                                                        Appendix B
                                                 Department of Homeland Security
                                                    Status ofPrior Year NFR 's
                                                        September 30, 2007



                                                                                                                                      Disposition              !

                        NFR
  Component             No.· ..                            Description                                                Closed         Repeat (Q1NFR No.)

         G&T            06-10     Number not used                                                                     Not applicable
         G&T            06-11     Number not used                                                                     Not applicable
         G&T            06-12     See Information Technology Management Letter                                       Not applicable
                                  Improvements needed in controls over grants payable
         G&T            06-13                                                                                                               FEMA 07-01
                                  estimation process
         G&T            06-14     Withdrawn                                                                           Not applicable
         G&T            06-15     FedShare error rate analysis is not performed                                           X
         G&T            06-16     Number not used                                                                     Not applicable
         G&T            06-17     Untimely deobligation of non-grant UDOs                                                                   FEMA 07-04

                                                                         .'           ii'ii.;:;.'
                                                                                        . ..,., 11i,·······               . "'.• !.!.!! "iii.!!'.·...........~
          CIS           06-01     Quality assurance analysis requirement                                                                       CIS 07-01
                                  Insufficient QA procedures related to the search for missing
          CIS           06-02                                                                                                                 CIS 07-01
                                  files
                                  Fee receipts are not being deposited in a timely manner per
          CIS           06-03                                                                                                                  CIS 07-02
                                  Treasury guidance
                                  RNACS improperly reflects completed N-400 applications
          CIS           06-04                                                                                                                  CIS 07-03
                                  as pending
                                  Washington District Office does not enter N-565 and N-600
          CIS           06-05                                                                                             X
                                  applications into RNACS until completed
                                  CLAIMS 3 and CLAIMS 4 are not being updated in a
          CIS           06-06                                                                                                                  CIS 07-04
                                  timely manner upon adjudication
                                  Incorrect fee amounts used in the query for CLAIMS 4 and
          CIS           06-07                                                                                                                  CIS 07-05
                                  RNACS
                                  Inconsistent classification within FFMS for purchases of
          CIS           06-08                                                                                             X
                                  goods and the use of receiving tickets
                                  Obligations are not being recorded in FFMS in a timely
          CIS           06-09                                                                                                                  CIS 07-06
                                  manner
          CIS           06-10     Applications not subjected to the QA procedures                                                              CIS 07-01
IEii.ii.. ::!;;:'!···                                            fCC   ·'·iY   !..'                           !E.·
                                                                                                                "'!i! i·'ii;!,"'··   ·iifii,i•.i·'·£:'·iif •.!i .• ·• .·!;
                                  Inconsistent classification within FFMS for purchases of
          ICE           06-01                                                                                                                  ICE 07-05
                                  goods and the use of receiving tickets
          ICE           06-02       Lack of consistency in recording the receipt date on invoices                         X
                                    Inadequate policies and/or procedures within the Ethics
          ICE           06-03                                                                                                                  ICE 07-09
                                    Office related to Senior Executive Service employees
                                    Documentation to support obligation and disbursement
          ICE           06-04                                                                                             X
                                    transactions were not readily available
                                    Untimely execution of reimbursable agreements with other
          ICE           06-05                                                                                             X
                                  I governmental entities when ICE is performing the services

                                    Approval of obligating documents by a contracting officer
          ICE           06-06                                                                                             X
                                  I prior to obligating within FFMS needs improvement.
                                    Untimely disbursement of payments to vendors and
          ICE           06-07       incorrect calculation of interest due pursuant to the Prompt                                               ICE 07-03
                                    Payment Act
                                    Lack of procedures to verify the receipt and acceptance of
          ICE           06-08                                                                                                                  ICE 07-07
                                  I goods or services for IP AC transactions
                                    Obligations are not being recorded in FFMS in a timely
          ICE           06-09                                                                                                                  ICE 07-04
                                    manner
                                    Discrepancies with the leave balances between the NFC
          ICE           06-10       records and STAR reports are not being researched and                                                      ICE 07-06
                                    resolved timely



                                                                          37
                                                                                                     Appendix B
                                  Department of Homeland Security
                                     Status ofPrior Year NFR's
                                         September 30, 2007




            NFR
Component                                   Description                            Closed   Repeat (07.NFRNo.)
             No.
   ICE      06-11   Valuation ofFPS obligations recorded in FFMS                     X
                    Untimely resolution of issues identified during the
   ICE      06-12                                                                               ICE 07-02
                    reconciliation of the SF-132 and SF-133
   ICE      06-13   Payroll interface errors                                         X
   ICE      06-14   Presence of abnormal balances and analytic differences           X
                    Elimination differences resolved by recording transactions
   ICE      06-15                                                                    X
                    to either another Federal enti i.e. GSA) or as non-Federal
                    Insufficient review of financial data prior to submission to
   ICE      06-16                                                                    X
                    the De artment


                    Inconsistent classification within FFMS for purchases of
                     oods and the use ofreceivin tickets
                    Documentation to support procurement transactions were
  MGT       06-02                                                                    X
                    not readi! available
                    Obligations are not being keyed into FFMS in a timely
  MGT       06-03                                                                               MGT 07-01
                    manner
                    Obligations entered into by potentially unauthorized
  MGT       06-04                                                                    X
                    contractin officer
                    Recording and recognizing capitalized purchases for the
  MGT       06-05                                                                    X
                    Workin Ca ital Fund (70X4640)
                    Control procedures to verify and validate undelivered order
  MGT       06-06                                                                    X
                    balances were not erformed


            06-01


                    Policy for assessment, management and reporting of
   S&T      06-01                                                                    X
                    environmental liabilities
                    Improvement of the approval process of obligating
   S&T      06-02   documents by the contracting officer prior to obligating         X
                    withinFFMS
   S&T      06-03   Obligations are not recorded in FFMS timely                                 S&T 07-01
                    Control procedures to verify and validate undelivered orders
   S&T      06-04                                                                    X
                    balances were not reformed.


                    Inconsistent classification within FFMS for purchases of
   USV      06-01                                                                    X
                     oods and the use of receivin tickets
                    Documentation to support procurement transactions were
   USV      06-02                                                                    X
                    notreadi! available
                    Control procedures to verify and validate undelivered orders
  USV       06-03                                                                    X
                    balances were not reformed
                    Controls over internal use software and software-in-
   USV      06-04
                    develo ment need im rovement


   TSA      06-01   Prepared by client (PBC) submissions                             X
   TSA      06-02   Grant accrual methodology                                        X
                    Untimely analysis of beginning balance impact of aviation
   TSA      06-03                                                                    X
                    securi fee treatment
   TSA      06-04   Human resources document retention                               X
   TSA      06-05   Inadequate closing procedures for June 30, 2006                  X



                                                      38
                                                                                                                            Appendix B
                                           Department of Homeland Security
                                              Status ofPrior Year NFR 's
                                                  September 30, 2007



                                                                                                        Disposition
             NFR
 Component                                        Descriptiol1                      Closed              Repeat(07 NFR No.)
              No.
     TSA     06-06       Property and equipment reconciliations and misstatements       X
     TSA     06-07       Recoveries of prior year obligation                            X
     TSA     06-08       Annual Leave File                                                                         TSA 07-02
                         Implementation of SSFAS No.4, Interpretation No.6 -
     TSA     06-09                                                                      X
                         Imputed Financing
                         Grant monitoring and compliance with OMB Circular No.
     TSA     06-10                                                                                                 TSA 07-15
                         A-133
     TSA     06-11       Journal voucher preparation and approval                                                  TSA 07-09
     TSA     06-12       Interim undelivered orders (UDO) testing                                                  TSA 07-05
     TSA     06-13       Improper Payment Act compliance                                X
     TSA     06-14       Debt Collection Improvement Act (DCIA) compliance                                         TSA 07-11
     TSA     06-15       FEGLI compliance                                                                          TSA 07-16
     TSA     06-16       Year end close                                                 X
     TSA     06-17       Required Supplementary Stewardship Information (RSSI)                                     TSA 07-10
     TSA     06-18       FFMIA non-compliance                                                                      TSA 07-13
               ,';"'''                ,"                                     ';',
                                                                                     :';'''':''''';::'''!::''''''''':':';    :/"",,;,,,:'i
W/                                                       :':,';:"!",:
     USCG    06-01       Coast Guard - actuarial post-employment travel liability                                    CG 07-09
     USCG    06-02       PP&E repairables                                                                            CG 07-10
     USCG    06-03       Oil Spill Liability Trust Fund - closed as of 9/30/06      Not applicable
     USCG    06-04       Coast Guard operating materials & supplies                                                  CG 07-06
     USCG    06-05       Statement of net cost                                                                       CG 07-01
     USCG    06-06       PP&E small boats                                                                            CG 07-18
     USCG    06-07       Reconciliation of actuarial file to payroll file                                            CG 07-16
     USCG    06-08       Environmental liabilities - vessel review                                          CG 07-15 (partial)
     USCG    06-09       Contracting officer warrant authority                                                       CG 07-02
     USCG    06-10       Cumulative results of operations analysis                                                   CG 07-20
     USCG    06-11       FFMIA non-compliance - cancelled appropriations                                             CG 07-21
     USCG    06-12       Accounts payable accrual- methodology                                                       CG 07-03
     USCG    06-13       UDO validation & verification process                                                       CG 07-19
     USCG    06-14       Review of prior year medical obligations/expenditure                                        CG 07-12
     USCG    06-15       Environmental liabilities - shore facilities                                                CG 07-15
     USCG    06-16       Aircraft depreciation asset records                                                         CG 07-18
     USCG    06-17       PP&E non-construction in process (CIP) assets                                               CG 07-23
     USCG    06-18       Environmental liability -lighthouses                                                        CG 07-15
     USCG    06-19       PP&E building & structures                                      X
     USCG    06-20       Actuarial pension - laws, regulations and assumptions                                       CG 07-16
     USCG    06-21       Authorization & recording of budget authority                   X
     USCG    06-22       Management review of Financial statement disclosures                                        CG 07-30
     USCG    06-23       Accounts payable accrual validation                                                         CG 07-03
     USCG    06-24       PP&E construction in process (CIP)                                                          CG 07-08



                                                              39
                                                                                                        Appendix B
                                  Department of Homeland Security
                                     Status ofPrior Year NFR 's
                                         September 30,2007



                                                                                          Disposition
            NFR
Component                                       Description                      Closed   Repeat (07NFR No.)
            No.
  USCG      06-25   Support for milital)' and civilian payroll- FBwT                           CG 07-22
  USCG      06-26   Opening general ledger account balances                                    CG 07-31
  USCG      06-27   Environmental liability - small arms firing ranges                         CG 07-15
  USCG      06-28   FFMIA non-compliance: ALMIS chart of accounts                          CG 07-21 (partial)
  USCG      06-29   Oracle fixed assets records                                            CG 07-18 (partial)
  USCG      06-30   000 medical invoices                                                       CG 07-12
                    Actuarial medical and IBNR Liability - unsupported medical
  USCG      06-31                                                                              CG 07-12
                    data
  USCG      06-32   Actuarial pension - experience study                                       CG 07-16
  USCG      06-33   US Navy reclassification                                                   CG 07-12
  USCG      06-34   000 medical invoices                                                       CG 07-12
  USCG      06-35   Accounts receivable                                                        CG 07-17
  USCG      06-36   Asset identification                                                       CG 07-18
  USCG      06-37   Abnormal general ledger account balances                                   CG 07-21
  USCG      06-38   Commitments                                                                CG 07-04
  USCG      06-39   Environmental liability - summaI)'                                     CG 07-15 (partial)
  USCG      06-40   Suspense accounts                                                          CG 07-25
  USCG      06-41   Actuarial pension - personnel data records                                 CG 07-16
  USCG      06-42   Yard assets                                                            CG 07-18 (partial)
  USCG      06-43   FFMIA non-compliance - NESSS chart of accounts                         CG 07-21 (partial)
  USCG      06-44   Purchase request numbers                                                   CG 07-04
  USCG      06-45   FFMIA non-compliance - ALMIS posting logic                             CG 07-21 (partial)
  USCG      06-46   FPD system controls                                                        CG 07-04
  USCG      06-47   Legal liability reporting                                                  CG 07-28
  USCG      06-48   Recording budget authority                                     X
  USCG      06-49   Payroll and payroll accrual                                                CG 07-07
  USCG      06-50   Unfunded leave                                                             CG 07-07
  USCG      06-51   Facts and Figures Quick report                                             CG 07-05
  USCG      06-52   On-top adjustments                                                         CG 07-31
  USCG      06-53   Intra-governmental transactions                                            CG 07-13
  USCG      06-54   FFMIA non-compliance - CAS chart of accounts                               CG 07-21
  USCG      06-55   PP&E additions & deletions                                                 CG 07-18
  USCG      06-56   FFMIA non-compliance - NESSS posting logic                             CG 07-21 (partial)
  USCG      06-57   PP&E existence                                                         CG 07-18 (partial)
  USCG      06-58   FFMIA non-compliance - general ledger analytics                            CG 07-21
  USCG      06-59   Deepwater obligations                                                      CG 07-11
  USCG      06-60   Federal Managers Financial Integrity Act                                   CG 07-24
  USCG      06-61   Year-end pipeline adjustment                                               CG 07-27
  USCG      06-62   UDO validation results                                                     CG 07-19




                                                         40
                                                                                                                                         Appendix B
                                               Department of Homeland Security
                                                  Status ofPrior Year NFR 's
                                                      September 30, 2007



                                                                                                                     I)isposition
                         NFR
     Component                                          Description                                 Closed           Repeat (07NFR No.)
                          No.
           USCG          06-63   FFMIA non-compliance: CAS posting logic                                                       CG 07-21
           USCG          06-64   PP&E useful lives                                                                             CG 07-26
           USCG          06-65   PP&E improvements - buildings & structures                                                    CG 07-18
           USCG          06-66   FY06 PP&E summary                                                                             CG 07-18
           USCG          06-67   Financial management and oversight                                                            CG 07-29
           USCG          06-68   FBwT reconciliation                                                                           CG 07-22
           USCG          06-69   GAO disclosure checklist                                                                      CG 07-30
           USCG          06-70   Financial reporting process                                                                   CG 07-31
                   e:,                                                              . .• L.'• ··,.·.;;;::;,J '·'T·@J:·.JiJ·. 1211[:)i1:::··'·'::::;'11(.. ::
  I·' "i·!.:,:"
                                                                              "'.
            USSS         06-01   Seized counterfeit currency inventory                                   X
            USSS         06-02   Seized counterfeit currency reporting                                                       USSS 07-01




I KPMG was engaged to perform an audit over the FY 2007 Department of Homeland Security balance sheet and statement of
custodial activity, and was not engaged to perform an audit over the statement of net cost, statement of changes in net position,
and statement of budgetary resources for the year ended September 30,2007. In addition, we were engaged to perfonn follow-up
on the status of all active Notice of Findings and Recommendations (NFRs) that supported reportable conditions reported in
KPMG's Independent Auditors' Report dated November 15, 2006 and which were not closed during FY 2007. All other NFRs
issued in previous years, which do not relate to the consolidated balance sheet, statement of custodial activity, or were not
reported in the November 15, 2006 Independent Auditors' Report are considered out-of-scope and no further procedures were
performed.




                                                                  41
                                                                                       Appendix C
                              Department of Homeland Security
                             Management Response to the Draft
                                   Management Letter


                                                                      u.s. Department of Homeland
                                                                      Security
                                                                      Washington, DC 20528




                                                                      Homeland
                                                                      Security
                                      February 22, 2008

MEMORANDUM FOR:              Anne L. Richards
                             Assistant Inspector General for Audits

FROM:                        Peggy Sherry, Director DHS Office of Financial Management

SUBJECT:                     Draft Management Letter for the FY 2007 DHS Financial
                             Statement Audit

Thank you for the opportunity to comment on the Draft Management Letter for the FY 2007
DHS Financial Statement Audit. We concur with the report's recommendations and are
currently incorporating the audit results into our Management Action Plans. We appreciate your
office's contributions and insights, and we look forward to working with you as we implement
our corrective actions and the DHS Financial Accountability Act.




                                              42
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Under Secretary for Management
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
Assistant Secretary for Legislative and Intergovernmental Affairs
Chief Financial Officer
Chief Infonnation Officer
DRS GAO/OIG Audit Liaison

Federal Emergency Management Agency

Chief Financial Officer
FEMA Audit Liaison

Federal Law Enforcement Training Center

Chief Financial Officer
FLETC Audit Liaison

Preparedness

Preparedness Audit Liaison

Science and Technology

S&T Audit Liaison

Transportation Security Administration

Chief Financial Officer
TSA Audit Liaison

U.S. Citizenship and Immigration Services

Chief Financial Officer
CIS Audit Liaison
Report Distribution



V.S. Customs and Border Protection

Chief Financial Officer
CBP Audit Liaison

V.S. Immigration and Customs Enforcement

Chief Financial Officer
ICE Audit Liaison

V.S. Coast Guard

Chief Financial Officer
USCG Audit Liaison

V.S. Secret Service

Chief Financial Officer
USSS Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
